<html>
<title> - AN EXAMINATION OF THE DECLINE OF MINORITY DEPOSITORY INSTITUTIONS AND THE IMPACT ON UNDERSERVED COMMUNITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
                     AN EXAMINATION OF THE DECLINE
                     
                         OF MINORITY DEPOSITORY

                      INSTITUTIONS AND THE IMPACT

                       ON UNDERSERVED COMMUNITIES

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON CONSUMER PROTECTION
                       AND FINANCIAL INSTITUTIONS

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2019

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 116-62
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           




                          ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
42-451 PDF           WASHINGTON : 2020 

                           

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             ANN WAGNER, Missouri
GREGORY W. MEEKS, New York           PETER T. KING, New York
WM. LACY CLAY, Missouri              FRANK D. LUCAS, Oklahoma
DAVID SCOTT, Georgia                 BILL POSEY, Florida
AL GREEN, Texas                      BLAINE LUETKEMEYER, Missouri
EMANUEL CLEAVER, Missouri            BILL HUIZENGA, Michigan
ED PERLMUTTER, Colorado              STEVE STIVERS, Ohio
JIM A. HIMES, Connecticut            ANDY BARR, Kentucky
BILL FOSTER, Illinois                SCOTT TIPTON, Colorado
JOYCE BEATTY, Ohio                   ROGER WILLIAMS, Texas
DENNY HECK, Washington               FRENCH HILL, Arkansas
JUAN VARGAS, California              TOM EMMER, Minnesota
JOSH GOTTHEIMER, New Jersey          LEE M. ZELDIN, New York
VICENTE GONZALEZ, Texas              BARRY LOUDERMILK, Georgia
AL LAWSON, Florida                   ALEXANDER X. MOONEY, West Virginia
MICHAEL SAN NICOLAS, Guam            WARREN DAVIDSON, Ohio
RASHIDA TLAIB, Michigan              TED BUDD, North Carolina
KATIE PORTER, California             DAVID KUSTOFF, Tennessee
CINDY AXNE, Iowa                     TREY HOLLINGSWORTH, Indiana
SEAN CASTEN, Illinois                ANTHONY GONZALEZ, Ohio
AYANNA PRESSLEY, Massachusetts       JOHN ROSE, Tennessee
BEN McADAMS, Utah                    BRYAN STEIL, Wisconsin
ALEXANDRIA OCASIO-CORTEZ, New York   LANCE GOODEN, Texas
JENNIFER WEXTON, Virginia            DENVER RIGGLEMAN, Virginia
STEPHEN F. LYNCH, Massachusetts      WILLIAM TIMMONS, South Carolina
TULSI GABBARD, Hawaii
ALMA ADAMS, North Carolina
MADELEINE DEAN, Pennsylvania
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
DEAN PHILLIPS, Minnesota

                   Charla Ouertatani, Staff Director
     Subcommittee on Consumer Protection and Financial Institutions

                  GREGORY W. MEEKS, New York, Chairman

NYDIA M. VELAZQUEZ, New York         BLAINE LUETKEMEYER, Missouri, 
DAVID SCOTT, Georgia                     Ranking Member
WM. LACY CLAY, Missouri              FRANK D. LUCAS, Oklahoma
DENNY HECK, Washington               BILL POSEY, Florida
BILL FOSTER, Illinois                ANDY BARR, Kentucky
AL LAWSON, Florida                   SCOTT TIPTON, Colorado, Vice 
RASHIDA TLAIB, Michigan                  Ranking Member
KATIE PORTER, California             ROGER WILLIAMS, Texas
AYANNA PRESSLEY, Massachusetts       BARRY LOUDERMILK, Georgia
BEN McADAMS, Utah                    TED BUDD, North Carolina
ALEXANDRIA OCASIO-CORTEZ, New York   DAVID KUSTOFF, Tennessee
JENNIFER WEXTON, Virginia            DENVER RIGGLEMAN, Virginia

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    October 22, 2019.............................................     1
Appendix:
    October 22, 2019.............................................    35

                               WITNESSES
                       Tuesday, October 22, 2019

Betru, Aron, Managing Director, Center for Financial Markets, 
  Milken Institute...............................................    12
Bowman, Jeff, President and CEO, Bay Bank........................    11
Falero, Mara, Vice President, Marketing and Communications, 
  JetStream Federal Credit Union, on behalf of the National 
  Association of Federally-Insured Credit Unions (NAFCU).........     9
Kelly, Kenneth, Chairman and CEO, First Independence Bank, and 
  Chair, Board of Directors, National Bankers Association (NBA)..     6
Sung, Jill, CEO and President, Abacus Federal Savings Bank, and 
  Chair, Independent Community Bankers of America's (ICBA's) 
  Minority Bank Advisory Council, on behalf of the ICBA..........     7

                                APPENDIX

Prepared statements:
    Betru, Aron..................................................    36
    Bowman, Jeff.................................................    43
    Falero, Mara.................................................    48
    Kelly, Kenneth...............................................    61
    Sung, Jill...................................................    67

              Additional Material Submitted for the Record

Meeks, Hon. Gregory W.:
    Written statement of Creative Investment Research............    76
    Written statement of the Credit Union National Association...    83
    Written statement of Inclusiv................................    87
    OCC press release............................................    91
Luetkemeyer, Hon. Blaine:
    Written statement of the National Bankers Association........    93


                     AN EXAMINATION OF THE DECLINE

                         OF MINORITY DEPOSITORY

                      INSTITUTIONS AND THE IMPACT

                       ON UNDERSERVED COMMUNITIES

                              ----------                              


                       Tuesday, October 22, 2019

             U.S. House of Representatives,
                Subcommittee on Consumer Protection
                        and Financial Institutions,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2128, Rayburn House Office Building, Hon. Gregory W. Meeks 
[chairman of the subcommittee] presiding.
    Members present: Representatives Meeks, Scott, Clay, 
Foster, Lawson, Tlaib, Porter, Ocasio-Cortez; Luetkemeyer, 
Lucas, Barr, Tipton, Williams, Loudermilk, and Kustoff.
    Ex officio present: Representatives Waters and McHenry.
    Chairman Meeks. The Subcommittee on Consumer Protection and 
Financial Institutions will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the subcommittee at any time. And, without objection, 
members of the full Financial Services Committee who are not 
members of this subcommittee are authorized to participate in 
today's hearing.
    Today's hearing is entitled, ``An Examination of the 
Decline of Minority Depository Institutions and the Impact on 
Underserved Communities.''
    And I know that we are in competition this afternoon with 
several different hearings, so I expect Members to be running 
in and out.
    I now recognize myself for 4 minutes to give an opening 
statement.
    To my friend and colleague, Ranking Member Luetkemeyer, and 
the members of the subcommittee, welcome to this hearing on the 
decline of minority depository institutions (MDIs) and the 
impact on underserved communities.
    This hearing continues our consideration of the challenges 
faced by disenfranchised marginalized communities, including, 
in particular, communities of color that face discrimination in 
access to financial services.
    It is regrettable in many ways that, in 2019, we still need 
to hold hearings to draw attention to the systemic challenges 
and structural discrimination faced by minority communities. It 
is frankly regrettable that, in 2019, we must still talk about 
the challenges faced by Asian banks, Hispanic banks, African-
American banks, Native American banks, and the dramatic 
disparities in lending to minority communities and low- and 
moderate-income (LMI) communities. But the data and the 
generational impact is irrefutable.
    Today, we will not only consider the problems, but we will 
also have a substantive conversation about actionable 
solutions, and a discussion of the draft of a bill I plan to 
introduce that was attached to this hearing. The bill seeks to 
tackle several key challenges faced by minority banks, 
including in particular those that focus primarily on serving 
unbanked and low-income communities.
    Specifically, the bill on which I look forward to feedback 
from our panel of experts here today addresses the following: 
one, access to capital. Overall, minority banks are smaller 
than their peers and typically well below a billion dollars in 
assets. These banks pose no credible systemic risk and focus on 
underbanked communities investing in homeownership and small 
business lending in LMI communities.
    Given the communities they serve, these banks often 
struggle to mobilize savings to redeploy in their communities. 
My bill tackles this by making it somewhat easier for minority 
banks that are also community development organizations to 
raise capital from private investors and from Opportunity Zone 
funds, and pushes the Federal Government to deposit funds that 
are fully insured within these institutions.
    Two, regulator engagement. The bill calls on the regulators 
to harmonize and strengthen the minority bank advisory boards 
and take ownership of their failings in the area of diversity. 
Specifically, the bill calls for regular auditing of the 
diversity of the bank examiner corps, publication of the data, 
and consideration of how the lack of diversity in this area and 
lack of special training of examiners engaging with minority 
banks in low-income communities harm their effectiveness.
    The bill also calls on the prudential regulators to 
consider more effective and coherent Community Reinvestment Act 
(CRA) examinations of minority banks that are also Community 
Development Financial Institutions (CDFIs).
    Furthering the CDFI fund, finally, the bills calls on 
Congress to fully fund the CDFI fund of the Treasury 
Department. The CDFI fund is a unique tool which leverages 
limited government funding to crowd in significant private 
sector capital and foster innovation investments in market-
oriented solutions to tackle some of our nation's most 
persistent challenges in poverty alleviation. This program 
deserves strong bipartisan support.
    In closing, I wish to highlight that I am very aware that, 
while today's hearing is very focused on minority banks and 
issues of discrimination, I recognize that any discussion of 
banking deserts and underbanked communities must also include 
consideration of rural and agricultural communities. These 
issues cut across districts and party affiliation, and I look 
forward to working with my colleagues on a bipartisan basis to 
tackle these important challenges.
    I look forward to the testimony of our witnesses here 
today.
    And I now recognize the ranking member of the subcommittee, 
Mr. Luetkemeyer, for 5 minutes for an opening statement.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    Minority Depository Institutions (MDIs), like all financial 
institutions, have struggled under the weight of the regulatory 
burden of the Dodd-Frank Act.
    According to a Harvard University study, Dodd-Frank has 
created an uneven regulatory playing field. This playing field 
resulted in additional legal and compliance costs for small 
institutions, preventing them from serving their customers, 
particularly the businesses and consumers within their 
community.
    MDIs play a unique role in serving their community. 
According to the FDIC and the Federal Reserve, MDIs serve 
consumers in low- to moderate-income communities at higher 
rates than non-MDIs.
    This committee should be focused on alleviating the burden 
on these institutions so they can serve their communities, 
specifically the minority and LMI communities.
    One such burden that will have a devastating effect on 
small depository institutions, and particularly Minority 
Depository Institutions, is the proposed Current Expected 
Credit Losses (CECL) accounting standard. Now, as many on this 
panel know, I could spend the length of this hearing discussing 
the pitfalls of this ill-conceived proposal. Instead, I will 
simply read an excerpt from a letter to the committee regarding 
CECL from the National Bankers' Association, which identifies 
itself as the voice of minority banking in the United States.
    And I quote: ``To the extent that CECL increases the cost 
of lending to borrowers that are perceived by regulators as 
being riskier or lower credit quality, such as low- and 
moderate-income consumers and small businesses located in low- 
and moderate-income communities, the economics of our lending 
decisions could be altered dramatically. This would further 
restrict access to credit for consumers and businesses that 
already experience limited credit options.''
    In addition, I would like to read a statement from the 
Center for Responsible Lending President Michael Calhoun on 
CECL, in which he said, ``As proposed, CECL creates a 
significant disincentive for lenders to originate loans to low- 
and moderate-income families and communities of color.''
    I would like to ask unanimous consent that the full 
statements from both of these organizations be entered into the 
record.
    Chairman Meeks. Without objection, it is so ordered.
    Mr. Luetkemeyer. The statements I just read are not unique. 
The truth is that numerous consumer interest groups have voiced 
concerns over CECL. Despite the warning signs these groups have 
raised, this committee has not taken any formal action to 
better understand the effects that CECL will have an low- to 
moderate-income consumers and minorities. No Full Committee 
hearings, no subcommittee hearings, no markups, no nothing. 
This inaction flies in the face of LMI borrowers in minority 
communities across the country who will be adversely affected 
by this accounting standard.
    For all of the rhetoric from the other side of the aisle 
about how consumers and minorities can struggle in the 
financial services industry, the Democratic leadership on this 
committee remains woefully silent on an issue that has direct 
impact on Minority Depository Institutions and the consumers 
they serve.
    I specifically mention that the Democratic leadership of 
this committee has been inactive because CECL is a bipartisan 
issue that has support from Members on both sides of the aisle: 
52 bipartisan Members have signed onto a bill to delay 
implementation of CECL until a study is completed that examines 
access to credit for consumers.
    In addition, roughly 30 members of this committee just last 
week signed a bipartisan letter I sent to FSOC urging the 
Office of Financial Research to study the impacts of CECL. 
Despite this bipartisan support, the chairwoman of this 
committee has done nothing to address an issue that could 
devastate low- and moderate-income lending and lending to 
minority communities.
    In front of this committee today are witnesses representing 
three separate organizations that have voiced concerns over the 
effects of CECL, effects that it could have on their member 
institutions as well as the consumers they serve. And yet, this 
committee has shown no interest in bringing this issue up and, 
in fact, seems completely content to let CECL go into place, 
despite the warning signs related to minority- and low-income 
borrowers.
    This committee is tasked with ensuring a healthy financial 
services industry and promoting economic freedom for everyday 
Americans. That responsibility includes ensuring financial 
institutions are not driven out of the marketplace by onerous 
requirements, and protecting the ability of consumers to gain 
access to credit.
    With that said, I urge all of my colleagues on both sides 
of the aisle to call for a committee hearing on CECL, or better 
yet, have the Financial Accounting Standards Board (FASB) come 
before this committee and defend this standard.
    I yield back.
    Chairman Meeks. I now yield 1 minute to the gentleman from 
Georgia, Mr. Scott.
    Mr. Scott. Yes. Thank you, Mr. Chairman.
    I do want to let my colleague from Missouri, Mr. 
Luetkemeyer, know that I agree with him, and will work with him 
on CECL. But I also want to clarify that Chairwoman Waters, who 
is the Chair of the full Financial Services Committee, is very 
much concerned about the status of minority-owned depository 
institutions, and she has asked us to look at that as well as 
she has an open mind to the CECL question as we get to it.
    But in my last few seconds, it is very important to say 
that banks are the heart of our financial system. And with the 
growing population among minorities, there could not be a more 
crucial hearing than today, Mr. Chairman, and I look forward to 
a very excellent hearing.
    Thank you.
    Chairman Meeks. Thank you. The gentleman's time has 
expired.
    Today, we welcome the testimony of, first, Mr. Kenneth 
Kelly, who is the chairman and CEO of the First Independence 
Bank, and the Chair of the National Bankers Association.
    First Independence Bank, headquartered in Detroit, 
Michigan, is now the seventh largest African-American-
controlled commercial bank in the country. He has been 
appointed to the Fed's Depository Institutions Advisory Council 
for a 3-year term, and has been appointed nationally to the 
FDIC's Community Bank Advisory Committee.
    Second, we will hear from Ms. Jill Sung, president and CEO 
of Abacus Federal Savings Bank in my home City of New York, and 
Chair of the Independent Community Bankers of America's 
(ICBA's) Minority Bank Council.
    Ms. Sung joined Abacus, the bank her father started in 
1984, as vice president and general counsel in 1996, later 
rising to executive vice president and then taking over as 
president and CEO in 2005. She serves in several leadership 
positions within the Independent Community Bankers of America, 
as Chair of the Consumer Financial Services Committee, and as 
Chair of the ICBA's Minority Bank Council.
    Third, Ms. Mara Falero, vice president of marketing and 
communications at Jetstream Federal Credit Union, a low-income 
CDFI operating in Miami-Dade County Florida, and in Puerto 
Rico.
    She has over 33 years of financial institution experience 
in both credit unions and banks, and she is very active in her 
community, serving on several chamber and credit union boards, 
and as the past Chair of the Town of Miami Lakes Economic 
Development Committee.
    Fourth, Mr. Jeff Bowman, president and CEO of Bay Bank, a 
Tribally-owned bank within the Oneida Indian Tribe of 
Wisconsin. Mr. Bowman has over 30 years in the banking 
industry, with the majority of his career working in bank 
management and commercial lending positions. He specializes in 
helping small businesses, by providing technical assistance. He 
is also active with several organizations that facilitate 
economic development and small business development. He 
specializes in assisting and capitalizing minority businesses, 
particularly Native American-owned small businesses.
    And last but not least, Mr. Aaron Betru, managing director 
of the Center for Financial Markets at the Milken Institute. He 
has over 20 years of experience and leads the Center's Access 
to Capital and Strategic Innovative Financing initiatives to 
enhance social impact, both in the United States and in 
developing countries.
    He also leads the Institute's work on Opportunity Zones and 
Qualified Opportunity Funds. Mr. Betru was a member of the 
steering group for the Blended Finance Task Force launched by 
the Business and Sustainable Development Commission, as well as 
co-chairing the Partnership for Lending in Underserved Markets, 
a joint initiative with the U.S. Small Business Administration. 
He is also a term member of the Council on Foreign Relations, 
and is a member of the Board of Directors for the Calvert 
Impact Capital NFHI Foundation.
    The witnesses are reminded that your oral testimony will be 
limited to 5 minutes. And, without objection, your written 
statements will be made a part of the record.
    Mr. Kelly, you are now recognized for 5 minutes to give 
your oral presentation of your testimony.

      STATEMENT OF KENNETH KELLY, CHAIRMAN AND CEO, FIRST 
  INDEPENDENCE BANK, AND CHAIR, BOARD OF DIRECTORS, NATIONAL 
                   BANKERS ASSOCIATION (NBA)

    Mr. Kelly. Chairman Meeks, Ranking Member Luetkemeyer, 
members of the subcommittee, thank you for the opportunity to 
testify on behalf of First Independence Bank and the National 
Bankers Association.
    I serve as chairman and CEO of First Independence Bank, a 
$272 million MDI headquartered in Detroit, Michigan. We are the 
only African-American bank in the State of Michigan and one of 
only two banks in the City headquartered in Detroit, and we are 
also a Community Development Financial Institution (CDFI). I 
also Chair the board of directors of the National Bankers 
Association, the leading voice of MDIs since 1927.
    Our banks are in crisis. They fail at a higher rate, and 
while there is broad diversity in the MDI sector in terms of 
profitability, mission-oriented financial institutions 
encounter unique challenges ranging from investors who don't 
understand the value of the services we provide, to, 
oftentimes, regulatory review that does not understand the 
communities we serve.
    We are the banks of first and last resort of our 
communities. Relative to non-MDIs, we do more small business 
and mortgage lending on a pro rata share. We often do specialty 
lending in terms of religious institutions and other community-
based organizations.
    We fully understand the value of our work, but absent 
intervention from Washington, fewer of our banks will exist to 
do this work.
    The top issue for NBA members is raising capital, as we 
mentioned. Congress can take four steps now to alleviate our 
capital-raising concerns by: one, amending the Community 
Reinvestment Act (CRA) such that the majority institutions 
automatically receive positive CRA consideration in addition to 
enhanced CRA credit for equity investment in MDIs; two, 
amending the Investment in Opportunity Act such that MDIs are 
eligible for equity investments; three, exempting MDIs under $3 
billion from the Bank Holding Company Act and change of control 
provisions; and four, creating an investment tax credit for 
equity investments in MDIs.
    Congress can also act now to help our banks diversify their 
deposit basis by: one, lowering the barrier to participation in 
the Minority Bank Deposit program; and two, modernizing the 
Federal Deposit Insurance Act approach toward broker deposits 
so that smaller MDIs can diversify their deposit basis.
    Congress is also well-positioned to use existing tools, 
like the Community Development Financial Institutions Fund, to 
create a fairer process for new markets tax credit allocation 
and to urge congressional appropriators to increase funding for 
all CDFI programs.
    Should it become law, Congress should leverage the Improve 
Access to Traditional Banking Act to create a fund for MDIs for 
financial literacy and alternatives to predatory products.
    Targeted deregulatory measures would benefit the NBA banks. 
The current leadership in the industry, the Executive Branch, 
and regulatory environments are working collaboratively within 
these constraints today.
    Examples include the bolstering of the Treasury Mentor 
Protege Program and the FDIC's MDI roundtable. But there is an 
immediate need to streamline BSA/AML reporting requirements for 
smaller banks, and there is still a need to strengthen Section 
308 of the Financial Institutions Reform, Recovery, and 
Enforcement Act of 1989 (FIRREA), requiring that significant 
regulatory developments include an impact analysis on MDIs and 
support MDIs' sustainability.
    In order to do the work that we do, we often look to 
Washington for support. The actions outlined above and in our 
written submission provide a roadmap for helping us to do this.
    Examples of that include actions taken by the forefathers 
of this great nation, including creating the Federal Reserve in 
1913, creating the FDIC in 1933, and, particular to MDI's, 
creating the Freedman's Bank over 154 years ago in 1865.
    You will hear a recurring theme throughout the hearing that 
demonstrates that leadership matters on issues related to these 
institutions, and in particular, policy matters more.
    We commend the subcommittee and the committee, and 
Chairwoman Waters and Chairman Meeks on their longstanding 
leadership on MDI issues and, most importantly, for holding 
this hearing.
    I look forward to answering the subcommittee's questions.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Kelly can be found on page 
61 of the appendix.]
    Chairman Meeks. Thank you for your testimony.
    I now recognize Ms. Sung for 5 minutes.

   STATEMENT OF JILL SUNG, CEO AND PRESIDENT, ABACUS FEDERAL 
   SAVINGS BANK, AND CHAIR, INDEPENDENT COMMUNITY BANKERS OF 
AMERICA'S (ICBA'S) MINORITY BANK ADVISORY COUNCIL, ON BEHALF OF 
                            THE ICBA

    Ms. Sung. Chairman Meeks, Ranking Member Luetkemeyer, and 
members of the subcommittee, I am Jill Sung, CEO and president 
of Abacus Federal Savings Bank in New York.
    I testify today on behalf of the Independent Community 
Bankers of America, where I serve as Chair of the Minority Bank 
Advisory Council and the Consumer Financial Services Committee. 
Thank you for this opportunity to testify at today's hearing.
    MDIs play a critical role in promoting economic prosperity 
in historically marginalized communities. I would like to thank 
Chairman Meeks for his work on a thoughtful discussion draft. 
We are pleased to have the opportunity to offer input on this 
draft and hope to continue to work with you as it advances 
through the process.
    Abacus Bank is a $350 million asset privately held savings 
and loan association headquartered in Chinatown, New York City, 
with branches in Chinese-American communities in Brooklyn, 
Queens, Edison, New Jersey, and Philadelphia. Abacus was 
founded in 1984 by my father, Thomas Sung, who immigrated 
through Ellis Island as a teenager from China. He went on to 
attend law school and eventually opened his own immigration law 
practice in Chinatown to help others like him find a better 
life in this country.
    He was motivated to open Abacus Bank by the realization 
that banks were more than happy to take his deposits but were 
not willing to give him or people like him a loan. Abacus was 
founded to change that and to ensure that our community has 
access to credit, a fundamental factor for the economic 
stability and growth of any community.
    The majority of our lending is in residential mortgages, 
particularly first-time homebuyers, a natural fit for our 
community, where the aspiration of owning your own home is 
almost sacred. We also lend on small multifamily and mixed-use 
investment properties. Our lending policy is extremely 
conservative, and our delinquency rates have always been 
unusually low, before, during, and after the financial crisis. 
We attribute this to our deep understanding of our customers, 
and we are very proud of how we have helped our community over 
the past 35 years, and we look forward to serving future 
generations.
    I would like to speak to some of the unique challenges we 
face as MDIs that serve immigrants. These challenges reflect 
the vulnerabilities of our customers in the financial system. 
The first is the language barrier. Because most of our 
customers speak Chinese as a primary language, we must hire 
employees who are fluent in Chinese. This limits the supply of 
qualified employees, and we often have to hire people with 
little or no banking experience and train them at a significant 
expense to us.
    The language barrier also increases our operating costs, as 
we spend much of our time translating, explaining to our 
customers disclosure forms and regulatory concepts with which 
there is often no literal translation in Chinese. The language 
barrier makes implementing a regulatory change, of which there 
have been many in recent years, twice as costly and time-
consuming.
    The second challenge is serving customers who come from a 
starkly different cultural and sociopolitical system. Many of 
them view not only the government but the banking system with 
deep suspicion. In order to overcome this lack of trust, we 
must heavily invest in financial education. We feel a 
tremendous responsibility to act as trust advisors to this 
vulnerable population and guide their decisions while at the 
same time respecting their concerns.
    Technology, which is transforming financial services, is 
not always suitable for this population. Some of our most 
popular products are safe deposit boxes and passbook savings 
accounts, old school products which cannot be automated and are 
costly and labor-intensive for us to maintain. Despite this, we 
continue to offer these products to ensure that the 
particularly vulnerable pockets of our community, like the 
elderly, still have access to the banking system in ways they 
feel safe and comfortable to use.
    As a small MDI, our business model does not easily lend 
itself to high margins and high profits. This is why access to 
capital is so key. We do not have access to public capital 
markets, and raising private capital through the regular 
channels is challenging, given our specific missions and our 
concentration of disadvantaged communities.
    I know this predicament of lack of capital faces all MDIs. 
We need to find ways to help MDIs obtain capital, such as 
reducing our regulatory costs so we can retain more of our 
earnings, diversify our income stream, and come up with new, 
nontraditional ways of raising capital. This is critical for 
our preservation, to ensure the fair and equitable access to 
the financial system is preserved for all.
    When we look at Chairman Meeks' discussion draft, this is 
the perspective we bring, the unique challenges I discussed and 
the need for new capital resources. My written statement 
provides a more detailed assessment of the draft.
    I would like to thank you again for your work on the 
promising constructive draft. We hope to continue to work with 
you to ensure the legislation reaches its true potential for 
strengthening MDIs in the communities we serve.
    With that, I am happy to answer any questions you may have.
    [The prepared statement of Ms. Sung can be found on page 67 
of the appendix.]
    Chairman Meeks. Thank you.
    Ms. Falero, you are now recognized for 5 minutes.

    STATEMENT OF MARA FALERO, VICE PRESIDENT, MARKETING AND 
 COMMUNICATIONS, JETSTREAM FEDERAL CREDIT UNION, ON BEHALF OF 
  THE NATIONAL ASSOCIATION OF FEDERALLY-INSURED CREDIT UNIONS 
                            (NAFCU)

    Ms. Falero. Good afternoon, Chairman Meeks, Ranking Member 
Luetkemeyer, and members of the subcommittee. My name is Mara 
Falero, and I am testifying today on behalf of NAFCU.
    I currently serve as the vice president of marketing and 
communications at JetStream Federal Credit Union. We appreciate 
the opportunity to share our views on the important role that 
Minority Depository Institutions serve in our economy.
    JetStream Federal has over $200 million in assets and 
serves more than 18,000 members in Miami-Dade County and parts 
of Puerto Rico. JetStream Federal is an NCUA-designated low-
income credit union, a Minority Depository Institution, as well 
as CDFI-certified. All of our employees are community 
development certified financial counselors. This program trains 
our staff to identify financial distress within our membership 
and proactively work to prevent financial catastrophe. Our 
membership is diverse and reflective of the communities we 
serve.
    Seventy-one percent of JetStream members are classified as 
low income, of which 40 percent are extremely low income; 68 
percent of our members are Hispanic, of which 27 percent are 
Puerto Rican; and 19 percent of our membership is African 
American.
    JetStream Federal is also a Juntos Avanzamos credit union, 
which is a community of credit unions committed to serving and 
empowering Hispanic communities. We were the first credit union 
in Florida to receive this designation.
    JetStream Federal is committed to meeting the needs of our 
members, which has led us to offer a number of products to help 
newly arrived immigrants and those with lower incomes, such as 
a second chance checking program, no credit check loans, and 
even a resettlement loan program for those moving from Puerto 
Rico to the mainland.
    Due to the areas that JetStream Federal serves, Hurricanes 
Irma and Maria critically affected our members in 2017. These 
hurricanes were a life-defining moment for many of our members, 
and we knew we had to act. JetStream Federal provided $2.5 
million of critical financial relief to our members during the 
first stages of recovery, including no-cost, zero-percent APR 
short-term loans, deferment of existing loan payments, 
elimination of transactional fees, and financial coaching for 
our members who were dealing with insurance cases while 
attempting to rebuild their homes.
    The credit union industry strives to lead when it comes to 
diversity, equity, and inclusion. The majority of credit union 
CEOs are women. The minority of MDIs are credit unions: 528 in 
2018, according to the NCUA.
    MDI credit unions serve 3.9 million members and tend to be 
smaller institutions. Eighty-seven percent of MDI credit unions 
have assets of less than $100 million. They also tend to 
underperform growth in all categories, including asset size, 
membership, and loan volume, in comparison to the rest of the 
credit union industry, largely due to a decline in membership.
    In my written testimony, I outline in detail several areas 
where Congress can act to help credit union MDIs such as 
JetStream Federal, and these include, first, fully funding the 
Community Development Financial Institutions Fund program. 
These grants have been an important tool for us to serve our 
members.
    Second, allowing all credit unions to serve underserved 
areas. Field of membership restrictions on credit unions, such 
as JetStream, hamper our ability to serve those in neighboring 
counties who have the same needs as our members.
    Third, making it easier to charter new credit unions by 
providing greater flexibility in the Federal Credit Union Act 
and giving NCUA the appropriate tools. This includes ensuring 
that NCUA has the authority it needs in areas such as credit 
union capital, subordinated debt, and loan maturity limits.
    NAFCU is generally supportive of the efforts in the 
discussion draft of the Ensuring Diversity in Community Banking 
Act. In particular, we are pleased to see the idea of creating 
an MDI Advisory Committee within each regulator. We welcome the 
opportunity to continue to work with the subcommittee as you 
consider legislative approaches to address this critical issue.
    In conclusion, credit unions are proud of the work we have 
done to serve minority and underserved populations. Still, MDI 
credit unions face a number of challenges. We urge the 
subcommittee to support efforts to improve the regulatory 
environment for MDI credit unions and modernize the Federal 
Credit Union Act.
    Thank you, again, Chairman Meeks, Ranking Member 
Luetkemeyer, and members of the subcommittee for the invitation 
to testify before you. I welcome any questions you may have.
    [The prepared statement of Ms. Falero can be found on page 
48 of the appendix.]
    Chairman Meeks. Thank you.
    I now recognize Mr. Bowman for 5 minutes.

     STATEMENT OF JEFF BOWMAN, PRESIDENT AND CEO, BAY BANK

    Mr. Bowman. Good afternoon, Chairman Meeks, Ranking Member 
Luetkemeyer, and members of the subcommittee.
    My name is Jeff Bowman, and I am the president and CEO of 
Bay Bank. We are a small community bank located in Green Bay, 
Wisconsin. Our bank is owned by the Oneida Nation.
    One of the things that makes us unique as an MDI is that 
there are only 18 Native American-owned institutions in the 
entire country, of the approximately 5,500 FDIC-insured 
institutions.
    We are also the smallest bank in Green Bay. Part of the 
Oneida Reservation overlaps the City of Green Bay, so we have 
an urban and a rural market from which we solicit our 
customers.
    Some of the services that we are very strong in and 
committed to include community and economic development as a 
small-dollar loan program. We do not base our credit decisions 
on credit scores. We look at expanded guidelines. This creates 
increased access, and it helps move people out of predatory 
lending.
    There is a huge problem with Native American people 
utilizing payday loan stores and short-term lenders, where a 
$500 loan turns into a $3,000 debt. We dedicate a lot of 
resources to make sure that we have a robust and easy-to-access 
small-dollar loan program.
    We are also very strong in mortgage lending. One of the 
original reasons why the bank was started in 1995 is, during 
the 1990s, there were a lot of bank mergers and acquisitions 
that left a void in community banking, Green Bay included. 
There were no small institutions. So, the Oneida Tribe 
partnered up with some local investors and started a brand new 
bank.
    One of the reasons why the Tribe was interested in forming 
the bank is making sure that their Tribal members had access to 
financing to purchase a home.
    If you are familiar with reservation communities, much of 
the land is checker-boarded, where it is a combination of fee 
land and then trust land. It is difficult to obtain a mortgage 
on trust land, especially when you go back in time to the 
1990s. One of the reasons for forming the bank was to make sure 
that the bank was going to be the responsible party and figure 
out a creative way to make mortgage loans on trust land.
    We are very good and strong in that space. We have 
originated over $90 million worth of mortgage loans to Native 
American borrowers throughout the Great Lakes area. So, we 
figured out how to solve that problem.
    We are also very active in the small business space. 
Minority small business owners, we don't always feel, get a 
fair shake. And when they apply for a business loan at Bay 
Bank, they are going to have a Native American person in the 
management team looking at their credit decision.
    It is interesting, and everybody's story and testimony here 
is we all have unique stories about our neighborhoods and our 
communities that we love. They can be ethnic-based. They can be 
low- to moderate-income. And one of the things that is 
encouraging in this bill is the formation of the advisory 
committee in which we have a voice. This is the first time that 
a Native American bank has had the opportunity to come and talk 
about what we do.
    We all have important stories, and we all need additional 
resources. But this advisory committee has an opportunity to 
share these stories with bank examiners.
    We are a $100 million dollar bank. We are the smallest bank 
in our community. But we are not just a bank. We effect social 
change. We are also a CDFI. We have an outstanding CRA rating, 
and we wear that like a badge of honor. We earned that. So, it 
is important that we recognize the efforts that MDIs are doing, 
and I think that has to trickle down to the bank examiner level 
to let them know you are not just looking at another $100 
million bank; you are looking at an institution that is 
effecting change.
    This bill has the opportunity to heighten the awareness of 
MDIs, and bring in additional resources, and we are in favor of 
that.
    In my testimony, I paint a picture of what the Oneida 
Community looks like. We have a 22-percent poverty rate and a 
9-percent unemployment rate. There are 11 Tribal communities in 
Wisconsin, 11 federally recognized Tribes. Oneida has some of 
the strongest economic indicators. When I mention a 22 percent 
poverty rate and 9 percent unemployment, there are several 
other communities where it is much worse.
    So, there is a role for what we do. We appreciate this 
opportunity to tell our story, and we hope that you will take 
this to the next level and keep bringing us additional 
resources so we can keep doing the work that we love to do.
    [The prepared statement of Mr. Bowman can be found on page 
43 of the appendix.]
    Chairman Meeks. Thank you.
    And I now recognize Mr. Betru for 5 minutes.

    STATEMENT OF ARON BETRU, MANAGING DIRECTOR, CENTER FOR 
              FINANCIAL MARKETS, MILKEN INSTITUTE

    Mr. Betru. Thank you. Thank you, Chairman Meeks, Ranking 
Member Luetkemeyer, and members of the subcommittee. It is an 
honor to be here.
    My name is Aaron Betru, and I am the managing director for 
the Center for Financial Markets at the Milken Institute. The 
Milken Institute is a nonprofit, nonpartisan think tank that 
promotes evidence-based research that serves as a platform for 
policymakers, industry practitioners, and community members to 
come together and address challenges we face here in the U.S. 
as well as globally.
    For the past century, steady economic growth and ongoing 
job creation has led to prosperity in the United States. 
However, not all segments of society have been able to 
participate fully in this prosperity. Inequality does exist. 
Ensuring all segments of society have an equal opportunity to 
contribute and benefit when the economy grows is critical to an 
equitable and just society.
    Minority Depository Institutions play a vital role here in 
promoting financial inclusion and economic viability for 
underserved communities by virtue of their presence and focus.
    However, yes, their numbers have dwindled. Those that 
remain today are limited in their capacity to serve their 
communities. I would like to focus my comments today from both 
a bottom-up institutional but also a top-down economic 
perspective on understanding the decline of MDIs as well as how 
to reverse this decline, all with the perspective of improving 
access to capital for underserved communities.
    From a bottom-up institutional perspective, I recently 
served as the co-Chair of Partnership for Lending in 
Underserved Markets, a joint initiative of the U.S. Small 
Business Administration and the Milken Institute to promote 
access to capital for minority-owned small businesses.
    Small businesses are the backbone of broad-based economic 
development. But, unfortunately, over the past decade, the 
United States has seen a significant and growing 
underrepresentation of minority-owned enterprises.
    In our work, we identified a series of factors as 
contributing to this situation, but one in particular stood 
out: access to capital. Without sufficient access to capital 
for a small business, not only were they limited in their 
ability to grow, but those individuals in the community who 
would have been hired lost out on jobs.
    Those individuals that the businesses would have provided 
in terms of services from a grocery to a computer store to a 
day care, never happened. In this context, a lack of access to 
capital contributes to a lack of access to the American Dream.
    As you have noted in your committee memo, a combination of 
factors emerged as contributing to a lack of access to capital. 
The 2008 financial crisis fueled bank closures, and home value 
reductions in minority neighborhoods, the collateral for these 
loans. This was exacerbated by longstanding bias in the banking 
sector. This is important, because bank loans nationally are 
the second-most prevalent source of start-up capital for a 
business. But for minority-owned businesses, it is a credit 
card, a far less efficient source of capital for funding long-
term growth.
    It has been well-documented. The Office of the Comptroller 
of the Currency recently confirmed that if you compare MDIs and 
Community Development Financial Institutions (CDFIs) to other 
banks, MDIs and CDFIs disproportionately focus on low-income 
communities.
    However, MDIs are small in the broader commercial banking 
context, and the result of the small scale is increased 
susceptibility to challenges associated with increased 
compliance costs, operational complexity and fast-paced 
technology-enabled competitive markets.
    If enhancing the scale of their impact is a target, 
understanding improvements strategies of MDIs and how to 
resource them is critical to assuring MDIs can be greater 
economic development engines for underserved markets from the 
bottom up.
    Now, from the top-down economic perspective, we are sitting 
in the tail-end of one of the longest periods of economic 
expansion for this country. Yet for the past 30 years, median 
household wealth for African Americans and Hispanics, in 
particular, has declined by 75 and 50 percent, respectively. A 
recent study by McKenzie & Company detailed that closing the 
racial wealth gap, just looking at Black and white Americans in 
particular, could mean improving the U.S. GDP by as much as 7 
percent. That is a trillion dollars.
    As a demographic shift, the minority groups become a 
majority of the U.S. population, it is no longer a nice-to-
have; it is an economic imperative to promote access to capital 
to these communities in order to grow the U.S. economy and 
retain our global competitive advantage. And we must meet this 
challenge with the full weight of U.S. public policy, and I 
believe MDIs are a part of this.
    In my written statement, I have provided a more detailed 
set of comments and recommendations revolving around a series 
of issues, but I will just mention three right now: one, 
promoting increased Federal deposits to MDIs; two, exploring 
the potential of MDI/FinTech collaborations; and three, 
enabling Opportunity Zone investments into MDIs and CDFIs.
    Let me conclude here. I thank you for this opportunity, and 
I look forward to the discussion today.
    [The prepared statement of Mr. Betru can be found on page 
36 of the appendix.]
    Chairman Meeks. Thank you.
    I want to thank all of the witnesses for your excellent 
testimony. And I think this might be the first time since I 
have been Chair, that all of the witnesses finished within 5 
minutes, and I didn't have to use the gavel one time.
    Thank you. Maybe what we will do in this round is, I will 
recognize myself to ask questions for 5 minutes, but it will 
give you an opportunity to put some more meat on the bones of 
which you may have testified.
    I will start with Mr. Kelly.
    Can you please tell us and speak to the challenges that 
MDIs face in seeking to raise equity capital to achieve scale?
    Mr. Kelly. Certainly. When you think about minority banks 
and their mission focus, one of the challenges has been that 
they have been measured to larger institutions. And by default, 
what happens is, they assume that they are not as profitable or 
their intent, in terms of what they are trying to improve, from 
a pretax return on assets is not worthy of investment. So you 
have what I will call an intra-industry issue.
    We also have now an inter-industry issue, where we are 
seeing technology companies are moving in and being able to 
attract capital, and move into the logistics of moving money in 
a way that is attractive to investors.
    One of our reasons for asking this committee to support us 
is to allow us to demonstrate that with the proper scale and 
the proper focus, our institutions can grow, be mission-
oriented in serving the low- to moderate-income communities but 
also be profitable.
    Chairman Meeks. Thank you.
    Ms. Falero, your bank is designated low income by NCUA. 
What advantages do you have with such designation, and how does 
NCUA work with you as a result of those?
    Ms. Falero. Being a low-income credit union allows us to 
serve the underserved better. CDFI certified also gives us a 
greater opportunity to be able to serve our community, and the 
grants that we receive from the Treasury that we have received, 
about two grants, helped us rebuild some of our loans in Puerto 
Rico, helped us do resettlement loans in Puerto Rico, and also 
helped us make people whole in Puerto Rico by assisting them 
with all of the items that they can't afford that insurance 
doesn't cover, for example, your furniture, your patio 
furniture, all of those other types of loans that they are not 
able to access. We have been able to do a good job with those 
loans.
    Chairman Meeks. Thank you.
    And, Ms. Sung, listening to Ms. Falero, do you think that 
other regulators should have designations similar to NCUA's 
low-income designation for banks? And what could some of those 
advantages and disadvantages be if they did?
    Ms. Sung. I think that any opportunity that we have to be 
able to obtain more access to capital, whether it is through a 
designation, as you stated, is important. At this point now, I 
am not clear, though, based upon the bills that I have seen, 
whether or not that would allow us to be able to access 
capital.
    I am concerned that, as we create this issue of trying to 
gather more data and we create data creep in our process, that 
the things that we do naturally and the things that we already 
do will be stymied as we try to meet certain requirements that 
are new.
    And I will tell you that my CRA rating has been outstanding 
for many years. And I know over 55 percent of my loans are to 
low- to moderate-income borrowers or Census tracts. And I feel 
already in what I do, I should be able to access that capital 
or grants that may be necessary to help us survive.
    Chairman Meeks. Thank you.
    Mr. Bowman, does government do enough to leverage programs 
at its disposal to deposit funds in MDIs, and what more do you 
think that we or the government can do in this area?
    Mr. Bowman. I am not an expert on that, so I may not have 
the perfect answer. However, the only the experience I have is 
a couple of years ago I went to a minority banking conference 
put on by the joint supervisors, FDIC and OCC, and there was a 
pamphlet advertising the Minority Banking Deposit Program. It 
had an application: Fill this out; we will contact you.
    I had a bad experience. I filled out the paperwork, sent it 
in, and couldn't get a real live person to call me back. At 
that point in time, I just figured, we are on our own.
    So, this bill has the opportunity to create access, and 
creating access would help reciprocal deposits. Every bank in 
this room needs deposits to make loans. Any opportunity would 
be appreciated.
    Chairman Meeks. Thank you.
    Last, Mr. Betru, I am interested in your comment about 
closing the wealth gap. Can you articulate more about that, how 
MDI banks would help?
    Mr. Betru. Sure. We are all well aware that essentially, 
when you look at the biggest driver of wealth creation in this 
nation, it definitely comes from the small business sector. In 
the small business sector, when you look at post-2008, a number 
of things happened in minority neighborhoods, where the biggest 
source of collateral that was used typically for small 
businesses was home equity value.
    After 2008, where in some ZIP Codes in minority 
neighborhoods, the value dropped by more than 50 percent, that 
collateral was not there anymore. Couple that with my previous 
statement with regards to the closures of the banks, and you 
had a perfect mixture of issues that actually prevented access 
to capital.
    If we want to create wealth, to actually bridge this gap, 
we have to think about providing the right type of capital, 
providing the right type of loan products, equity as well as 
debt, to minority-owned businesses so that they can actually 
grow those enterprises but also hire more in their 
neighborhoods. From there, then we can actually be in a much 
better position to create the wealth in minority neighborhoods 
to be able to address the gaps that we have been seeing across 
30 years.
    Chairman Meeks. Thank you very much.
    I now yield to the ranking member, the gentleman from 
Missouri, Mr. Luetkemeyer, for 5 minutes.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    And witnesses, welcome to the panel today.
    The first question is for Mr. Kelly.
    Your testimony states that First Independence Bank remains, 
like so many CDIs, the bank of first and last resort for the 
communities that you serve.
    In addition, the letter from the National Bankers that I 
read in my opening statement said that CECL would further 
restrict access to credit for consumers and businesses that 
already experience limited credit options.
    Can you describe what limited credit options look like for 
individuals that your bank serves in your community?
    Mr. Kelly. Thank you, Ranking Member Luetkemeyer.
    What we find is that alternative financial services become 
very challenging for people. They are very expensive for 
individuals to have to do, check cashing, to have to do payday 
lending, et cetera.
    What our bank and what banks like ours do is provide those 
individuals another opportunity for financial alternatives, and 
that is what I am describing in that comment.
    Mr. Luetkemeyer. My concern is--and I am anxious to hear 
your response here--I believe that CECL will raise the cost of 
loans that you give, because in order to reserve for those, you 
are going to have to find the income from someplace. And to me, 
that limits access to credit.
    What would happen if access to credit to those consumers 
was further restricted due to CECL, where would those 
individuals go or what would they do?
    Mr. Kelly. I think, exactly as you just referred to, they 
would have to resort to alternative lending.
    If I heard your comment correctly, you were asking, does 
CECL put restraints on our business? Is that correct?
    Mr. Luetkemeyer. Yes.
    Mr. Kelly. The answer to that is, yes. In fact, I think we 
all would agree on this panel that the discussion of CECL being 
delayed was something that we were very proud to hear, and that 
we celebrated. That has not been our primary fight at this 
point because we are talking about issues such as capital.
    But your question and your premise is exact in that if we 
had to adhere to that, it would create even more pressure for 
institutions like ours.
    Mr. Luetkemeyer. Very good.
    Ms. Falero, your testimony states that 71 percent of your 
customers are low income or below and 68 percent of your 
customers are Hispanic.
    If the statement I read from the Center for Responsible 
Lending is correct, and CECL restricts lending to LMI and 
minority communities, what will that do to your business model 
and customer base? And I think you also--I know your 
association was very prompt in getting information to me with 
regards to the effect on your credit unions.
    Ms. Falero. Congressman, the effect of CECL on credit 
unions, not only our credit union, would be a tremendous 
regulatory burden and additional compliance costs. So, we would 
be spending more money dealing with that, and giving us less 
opportunity to deal with our actual members who need us.
    Mr. Luetkemeyer. We have heard in this committee before, 
testimony from the National Association of Home Builders that 
for every thousand dollars of increase in a home loan, 100,000 
people across the country no longer have access to home 
mortgage lending.
    And, to me, credit unions and small banks, community banks, 
are the crux of where this CECL accounting is going to hit and 
the very people who need access to the credit, low- to 
moderate-income folks, are where your business model is. Those 
are the folks that you take care of.
    And so, it is very concerning to me that this is going on. 
And I appreciate your response to that. I think in the letter 
you said that your capital would be affected roughly $14 
billion to $15 billion. How do you recover that? What is your 
revenue stream?
    Ms. Falero. I couldn't even answer that right now.
    Mr. Luetkemeyer. Probably interest rates and fees on the 
loans, right?
    Ms. Falero. It would have to be--yes. And that is something 
that we are not--
    Mr. Luetkemeyer. So you are going to raise the cost of the 
loan, which restricts the ability of people to have access to--
    Ms. Falero. Exactly, and that is not the way our operating 
model works.
    Mr. Luetkemeyer. Perfect.
    Ms. Sung, your testimony states that CECL might make sense 
for larger institutions but is misapplied to your institution 
and its peers. Can you elaborate on that statement? And when 
you say ``peers,'' do you mean small institutions or MDIs?
    Ms. Sung. Small institutions and MDIs.
    Mr. Luetkemeyer. Okay. How would it affect you?
    Ms. Sung. I think the cost of compliance is unknown right 
now, and that is what is scaring us. Also, the uncertainty of 
how the regulator will look at CECL once it is in effect is 
worrying us as well.
    As a result, will we have to spend money on consultants? If 
so, that will cost money and time for us as well.
    Mr. Luetkemeyer. Do you believe there is a procyclinal 
effect? In other words, whenever the economy turns down, you 
are going to have to reserve more, and therefore you have to 
raise costs and it just keeps spiraling the wrong way?
    I see Mr. Kelly nodding his head. Do you agree with that?
    Ms. Sung. Yes. There is no other way to understand that 
otherwise.
    Mr. Luetkemeyer. Ms. Falero, you agree with that?
    Mr. Bowman, I see you shaking your head.
    Mr. Betru, you also as well.
    I see my time is up. Thank you so much for your comments 
today. I appreciate it.
    I yield back.
    Chairman Meeks. The Chair now recognizes the gentleman from 
Georgia, Mr. Scott, for 5 minutes.
    Mr. Scott. Thank you very much, Mr. Chairman.
    Let me just commend you. This is an extraordinarily 
important and critical issue. And let me tell you just how 
critical this is. You have to put it in the framework of the 
history of our country, when it relates to this issue, 
paramount of which came during the Civil War.
    Alexander Hamilton, during the Revolutionary War, set the 
principles and the foundation of our great system, and we 
wouldn't have been here without that great centralized banking 
system; it required every State of the 13 States at that time 
to have a bank and to organize into a major central bank to 
power.
    But something happened just a little while later. It was 
the Civil War, which tore the whole country apart, and which 
ripped this banking system apart. But it had to come back 
together very quickly. But here is the point: It didn't come 
back for 4.5 million Black slaves. But they realized that they 
had to do something. And that is where the Freedman's Bank came 
in. And then, later on, with Plessy v. Ferguson, separate but 
equal, they wouldn't let the Black folks go in the white folks' 
bank, so they had to get Black banks.
    Here is my point. Right now, you have Mr. James Ballentine, 
who has just left. He is an executive vice president of the 
American Bankers Association, as an African American. Mr. 
Kelly, you are Chair of the National Bankers Association, as an 
African American. Wonderful.
    What I am saying is, the pieces are here. But the energy, 
the thrust, the urgency of this government to respond to this 
is not.
    Now, if we had 4.5 million slaves there without banking, 
what did they do? They put together the Freedman's Bank. Then 
what Plessy v. Ferguson did, they had to put the banks in each 
of the former Confederate States where there weren't any. 
Government policy moved to that.
    The reason I am saying that is, the answer to our unbanked 
and underbanked population is to bring and give this as a 
tremendous seeding opportunity. What better group of banks do 
we have to service and get in there so that we can reduce this 
unbanked? There are 58 million unbanked and underbanked people.
    Anyway, now that I have my sermon out, let me get to my 
question.
    I want to get to you, Mr. Kelly. What should we in Congress 
be doing to take steps now to get more of these banks in? We 
have agencies for everything, but not this. We used to have 
some efforts. But unless we get an institutionalized approach, 
that there is an entity here in the Federal Government whose 
sole purpose is to increase Minority Depository Institutions 
and have that as a primary goal of being able to enrich the 
banking system by solving this--it is a shame to have 58 
million unbanked and underbanked people.
    What say you on that? What else should we be doing?
    Mr. Kelly. Congressman Scott, thank you for that. And it 
aligns with my opening statement. We talked a little bit about 
the creation of the Federal Reserve System in 1913, and the 
FDIC in 1933.
    Mr. Scott. Yes.
    Mr. Kelly. My point was that leadership matters, but policy 
matters more. And so, to your point, which is how do we help 
support the unbanked and underbanked, there is a bill right 
now, the Improving Access to Traditional Banking Act. We need 
to make that happen soon. We need to ensure that there is a 
fund created for MDIs to support financial literacy and 
alternatives to predatory products. That is the thing that I 
would say immediately.
    But the second thing I would say is--
    Mr. Scott. I thank you for that. That is my bill. I am on 
that. And I didn't ask for that commercial.
    Mr. Kelly. You did not, but I--
    Mr. Scott. You see the energy--the energy is on this 
committee to really get institutionalized on this.
    And if they did it for the slaves coming out of the Civil 
War, 4.5 million, surely, we can do it to really solve the 
problem of getting to 58 million underbanked.
    One other point--I know, Mr. Chairman, you want me to make 
my point here--but do you all know--and I am finished after 
this--that there has not been an additional African American-
owned bank in 20 years, since 2002?
    Chairman Meeks. The gentleman's time has expired.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Meeks. The gentleman from Texas, Mr. Williams, is 
now recognized for 5 minutes.
    Mr. Williams. Thank you, Mr. Chairman.
    Dodd-Frank greatly increased compliance costs on smaller 
institutions throughout the country. Even though these banks 
pose little threat to financial stability, they have had to 
bear the greatest burden from a heavy-handed regulatory 
approach by the Federal Government. I have long been an 
advocate that banks should be hiring more loan officers than 
compliance officers, and this rings especially true for 
community banks.
    Mr. Betru, how has a greater regulatory burden affected the 
number of MDIs as well as the cost of credit to their 
customers?
    Mr. Betru. Thank you. I think when talking about any of the 
regulatory issues, the number of capital rules worth 
considering, most of these come from, let's say, the Basel 
Committee and the Bank of International Settlements as an 
example. In particular, there are rules around the level of 
high-quality liquid assets, how much banks should be holding in 
reserves, should be rightsized to the inherent risk of the bank 
itself. MDIs in particular, given how small they are, we know 
that most of them are low $1 billion in assets. I believe there 
are only a few that exceed that number, yet the rules that 
govern them are pretty much exactly the same up and down the 
ladder.
    A couple of things to kind of give you an example of this. 
The number of foundations that want to participate in 
supporting access to capital and work with the various MDIs, 
from the various Rockefeller Foundations, Kresge Foundations, 
is an unbelievable number. However, the way that they want to 
participate is by backstopping the credit risk that these 
different institutions have in providing access to capital, and 
they are willing to provide guarantees. These guarantees are 
governed, not just between the two different institutions, but 
those rules are governed by different bank standards around 
capital adequacy rules, leverage ratios, and the like.
    Now, with these rules, it actually specifically stipulates 
whether or not a foundation that provides these guarantees 
treats those guarantees in terms of a high-quality liquid asset 
that can be both exchangeable within 30 days or tradable on the 
open market. That level of scrutiny has forced these 
foundations to say, well, the only way that we can provide this 
is in certain rules that actually will abide by Basel or the 
particular bank regulator that is engaged.
    If we want to have the rest of the economy actually 
participate in pushing access to capital through the MDIs, we 
have to realize the exact rules that govern the capital 
adequacy rules, the liquidity ratios that these banks are 
subject to, have to be in line with our overall objective. We 
can't, in one way, support safety and soundness, and then from 
the other side, provide regulations that actually prevent that 
access to capital for underserved communities.
    Mr. Williams. Thank you. Last week, I questioned CFPB 
Director Kraninger on the small business data collection 
provision contained in Section 1071 of Dodd-Frank. I spoke with 
many community bankers in Texas about the potential costs that 
this rule would impose on smaller institutions.
    Ms. Sung, I understand that you operate a savings bank 
focusing primarily on mortgages. Can you talk about the HMDA 
data collection process for mortgages and why the Section 1071 
data collection process for small business loans could have an 
adverse effect on lending by community banks?
    Ms. Sung. Yes. HMDA collection and reporting takes up 3 
months of the 12 months of our lending season. We have about 
six people in our credit operations department, two of them, 
including my top senior credit officer, is actually--operations 
officer, is actually involved with the collection and ensuring 
the HMDA data scrub carefully, properly matching the fields, 
and finally uploaded to the government website.
    I believe that this process would be very, very difficult, 
even more so difficult in the small business lending, even 
though I am not 100 percent in that space. What happens with 
residential lending is that at the very least, you have a 
uniformed residential application you give to every single 
borrower and that borrower is required to fill out those 
fields.
    In small business lending, I was just in my Consumer 
Financial Service Committee meeting with the ICBA, and all of 
the business lenders are saying that a lot of them don't even 
use an application process in the beginning, and they are 
actually having different ways themselves customized to ensure 
that they are able to meet the credit needs of their community 
in the small business space. This alone is completely--seems to 
me going to be very impossible for these small business lenders 
to be able to create this uniformity to upload this data and 
collect it.
    Mr. Williams. Thank you. I yield back.
    Chairman Meeks. Thank you. The gentleman yields back.
    The gentleman from Missouri, Mr. Clay, who is also the 
Chair of our Subcommittee on Housing, Community Development, 
and Insurance, is now recognized for 5 minutes.
    Mr. Clay. Thank you, Mr. Chairman, especially for 
conducting this hearing. And I thank all of the witnesses for 
your attendance.
    I will start with Mr. Betru. Data shows that MDIs operate 
predominantly in low- and moderate-income communities and have 
as their client base an overrepresentation of communities of 
color. Can you speak to the challenges of having a business 
model like that?
    Mr. Betru. Sure. I think it is important to put that within 
the context of what is actually going to be the financial 
services of tomorrow. There are currently a number of online 
and mobile banking services that made themselves available 
post-2008. We talked earlier about what happened in the 
financial crisis in terms of the amount of wealth that was 
destroyed, the amount of home values that were destroyed, and 
the amount of bank closures that happened in 2008. What swept 
in was definitely a number of nonbanks that were providing 
financial services.
    These financial services firms have a different set of 
rules with regards to the type of loans that they provide and 
different types of products. If we look at low- to moderate-
income communities, they are still of the exact same ilk as any 
business where cash matters, speed in being able to obtain 
working capital loans, CapEx loans, and the like.
    Now, with the absence of minority depository institutions, 
what are they doing? They are going to the only sources that 
they can find, whether it be payday-based or more reputable 
ones. And I think it is important to mention that online firms, 
in general, are actually--there is a wide swath of them. We did 
an evaluation of more than a hundred different institutions, 
different models, different approaches, so you can't paint them 
with the same brush.
    Mr. Clay. But have the participation levels, has the actual 
lending improved as compared to a brick-and-mortar institution?
    Mr. Betru. Absolutely. In fact, PayPal Working Capital in 
particular released a study, I believe in 2017, that found that 
when they launched their service online, the vast majority of 
the customers that they serviced were principally minority and 
women in the ZIP Codes where they saw a number of bank 
closures. Essentially, the answer to your question is, yes.
    Mr. Clay. Any explanation for that, or what do you 
hypothesize about it?
    Mr. Betru. There is a mixture of things. Either, we are 
talking about in financial services where, because the banks 
were not in their ZIP Codes, they went to alternative sources, 
and those alternative sources met the need of the particular 
borrowers.
    Mr. Clay. Okay. Thank you for that response.
    Let me ask Mr. Kelly and Mr. Bowman, minority banks operate 
more than their peers in minority and LMI communities. They 
also continue to engage with minority small businesses which 
face significant discrimination from nonminority banks. How 
successful have you been in extending products and services to 
those who want to start a business in your community? Mr. 
Kelly, you can start.
    Mr. Kelly. Certainly. I will say--and thank you, 
Congressman Clay. In my opening comments, I mentioned in 
several cases where the first and sometimes last resort for 
those entrepreneurs, you heard that ethnic minorities typically 
don't get to fund out of their home equity; they do it out of 
credit cards. That is just a metaphor for the challenges that 
we see within our communities, and that is why it is so 
important when you look at, on a pro-rata share, these 
institutions serve a market that is typically left behind.
    It is our intention to continue to be focused on those in 
that space of the community and to try to provide services 
where they normally wouldn't have an alternative. That is not 
predatory.
    Mr. Clay. I see.
    Mr. Bowman, anything you can add to that?
    Mr. Bowman. Yes. I think a real live example is 
appropriate. We have conducted outreach into some of the other 
Native American Reservations looking for opportunities to help 
people, and it is really interesting, because when they have a 
Native American banker approach them, they feel that they are 
going to get a fair shake. I spent the first half of my career 
working for a giant money center bank, and the rules were very 
rigid. The guardrails are very narrow. If I utilize those 
lending guidelines to help that Native American borrower, I am 
not going to make that loan.
    What you have to figure out, from an entrepreneurial 
standpoint, is how am I going to help? In the center of 
Wisconsin, there is a reservation, the Menominee Indian 
Reservation. It is 240,000 acres, 95 percent wooded. The 
primary industry is logging, and Menominee Tribal members log 
that land. I have made equipment loans to loggers with no down 
payment, buying a piece of equipment, because if you don't have 
a down payment, you can't go to work.
    Chairman Meeks. The gentleman's time has expired.
    Mr. Clay. My time is up. Thank you.
    Chairman Meeks. I now recognize the gentleman from Georgia, 
Mr. Loudermilk, for 5 minutes.
    Mr. Loudermilk. Thank you, Mr. Chairman. I appreciate 
everybody on the panel here.
    It is a very interesting discussion, especially, Mr. 
Bowman, kind of the direction you were going right there are 
some of the concerns I have being from Georgia, when our State 
lost over 70 banks during the financial crisis, and we still 
have a lack of community banks. And that is one of the issues 
is, the bank that is managed closest to the people understands 
the culture, they understand the people, they understand the 
needs, and it is like the Federal Government has come in and 
taken away the local decision-making that best fits that 
community.
    Ranking Member Luetkemeyer brought up CECL, and I fully 
agree with his assessment on that. And when I talk to our 
community bankers in Georgia--and keep in mind, we still have 
50 counties in the State that do not have a locally owned 
community bank or credit union in that county. We even have 
some counties that don't have a bank branch at all, and that is 
a big concern.
    And when I ask about the challenges our community banks 
face and why we don't have the creation of de novo banks--we 
haven't seen them come back. We have had a few, but they are 
just not coming back in a way that we think they should--I am 
continually told it is like the death of a thousand cuts. It 
isn't one thing; it is a multiplicity of things. And I see CECL 
is that thousand and first cut into that because of the 
uncertainty. It is like, all right, we had a bad situation, now 
let's just throw out an idea that is not tested and we will 
just see how the market reacts. And it is going to hurt the 
local communities more than anyone else if it fails.
    Ms. Sung, the scenario I have laid out with community 
bankers and just the not seeing a revival of those locally 
controlled banks because of multiplicity of existing 
regulations, the uncertainty of new regulations, in your 
testimony, you said Congress and the banking regulators should 
pursue policies to promote the de novo banks and MDIs. Do you 
have any specific recommendations of those policies that we 
should be pursuing?
    Ms. Sung. There is talk about this in the draft bill, and I 
believe the streamlined process to be able to apply as a de 
novo bank is extremely important. However, I also don't want to 
just base it upon an application process. I think it is 
important to allow these banks, once they apply and they are 
granted a charter, the ability to actually breathe and live, 
and that is in the capital ratio requirement. You should not 
have a bank that is just starting and hasn't had a chance to 
live and to be something with a capital ratio requirement that 
is equal to a high-risk, big money center bank.
    I believe that one way to do this, other than streamlining, 
is to create several tiers of capital requirements that are 
lower when the bank begins, and then as it grows and matures, 
is higher as it takes on more risk and gets bigger.
    Mr. Loudermilk. I agree with you. I think that is one of 
the problems we have with Dodd-Frank is lumping everybody into 
one category without consideration of the constituency or the 
customer base or the community.
    Ms. Falero, what are the biggest barriers to de novo credit 
unions, particularly MDIs?
    Ms. Falero. I have to agree with Ms. Sung, the requirements 
to create a de novo credit union are extremely stringent, and 
then when they do get their charter, all of the other 
requirements and all of the compliance issues that the credit 
union has to come to terms with, it is extremely difficult for 
them to compete.
    Mr. Loudermilk. And, Mr. Bowman, again, I appreciate your 
testimony, because I remember when I started my business. Under 
today's regulations, I would not have been able to establish a 
line of credit, but the bank president knew me, knew my 
character, knew me personally, and was willing to take a risk, 
and we ended up making a fairly successful business. And that 
has just been taken away from our banks.
    Mr. Kelly, how is BSA/AML playing in this issue of not 
being able to develop new banks? Do you feel that the Bank 
Secrecy Act and the regulations around that play a factor?
    Mr. Kelly. Yes. I will give you one example of that, 
Congressman. The Beneficial Owners Act that we have to comply 
with is very challenging. Now, the question is, we have been 
given the authority to be the police to know who is actually 
behind the business, but the reality is, most of those should 
be governmental records, when someone gets a license for a 
business, et cetera. That is just one example where that burden 
needs to be taken off of the banking system.
    But the others have been old and maybe stale. One example 
would be the cash requirement of $10,000. People don't use cash 
the same way they did 50 years ago, or 40 years ago when that 
was put in place, but we still have to adhere to it. So, that 
means I have to have personnel in the back office to ensure 
that we are tracking those. So, we need a more comprehensive 
view of money and how it moves.
    And I agree that there are things we need to do to be sure 
that there aren't detrimental or prerogative things happening 
inside of a bank, but the principles from 40 years ago don't 
apply today. And that is just one example.
    Mr. Loudermilk. Thank you for that.
    I yield back.
    Chairman Meeks. The gentleman's time has expired.
    I now recognize the gentleman from Illinois, Mr. Foster, 
for 5 minutes.
    Mr. Foster. Thank you. And thank you to our panelists.
    This is something that has been worrying me for a long 
time. I am just so worried that small community banks are going 
to go the way of small community newspapers, and that our 
country will be poorer as a result.
    One question I have is whether the competition from 
FinTechs is landed disproportionately on minority-owned 
financial institutions. Anyone want to pick that up, either in 
the mortgage space, where I am pretty sure it probably may 
have, and just in the general overall banking?
    Mr. Betru. Yes. We looked at, essentially, what has been 
going on in terms of the access to capital in underserved 
markets and, in particular, because of all the issues again 
with regards to lowering of assets, lowering of credit scores, 
the absence of the banks in low-income communities, other 
providers of capital have definitely stepped in, the FinTechs 
in particular. And, again, per my previous statement, there is 
a wide number of models and platforms, and so you can't paint 
everybody with a broad brush, the same brush. However, they are 
using technology in a way that a lot of the banks are having a 
hard time adopting because of difference between the regulatory 
standards that the nonbanks have versus the banks have.
    And so as you look at ensuring some of the rules with 
regards to fair lending, disparate impact, it is not at the 
same level; however, here is where regulation can actually go a 
little bit further. If you look at the access to capital 
mission of the CDFI space in particular in targeting low-income 
individuals, specifically, if I look at the small business 
sector, you have seen the banks essentially utilizing the 
entrepreneur's own credit score rather than the cash flow of 
the business. That is what the larger banks do in a business 
profile. However, utilizing that cash flow requires a 
completely different cost profile.
    Now, the FinTechs have actually started to use technology 
in an unbelievable way to be able to do that, and so we 
actually did that test. We brought in a number of institutions 
and we looked at, can a cash flow base methodology for 
providing access to capital to a small business in underserved 
markets actually--does that yield a positive outcome?
    And this is a study that we recently released with our 
partner organization FinRegLab, but, yes, it does. But the 
issue is the ability for the banks to utilize that type of data 
is something that is regulated versus on the FinTech side.
    Now, we have been asking this question, why can't the MDIs 
and the FinTechs actually collaborate more? But this is another 
part of regulation. Third-party lending platforms, which are 
governed by the OCC, actually are a little bit more complex, 
and allow a bank to partner with a FinTech to utilize that 
technology, and increase the access to capital. In the absence 
of finding that regulation that enables that collaboration, 
FinTechs have moved in and actually are doing it in a way that 
sometimes is a bit opaque.
    Mr. Foster. They come into all of our offices and say how 
they are going to provide services to the underbanked and so on 
and so forth, but they sound a lot like all of your traditional 
customers, that they are going to go cherry pick profitable 
opportunities and just make your life harder. And so, it is a 
double-edged sword.
    We are also very interested in bias in algorithmic lending, 
but that may cause them to focus on traditional, mostly white 
groups they traditionally lend to because that is their 
training set for their artificial intelligence and leave your 
customers alone. And so I am just wondering which way the sword 
is cutting here and whether you feel like it is just putting 
all small banks under stress or preferentially the minority-
owned banks. Mr. Bowman?
    Mr. Bowman. Thank you. Wisconsin has 11 Tribal communities. 
We are very big in one, and a small presence in others. FinTech 
has the opportunity of using this to access those communities. 
One of the challenges is when you are a small community bank, 
you are a small business. We watch every penny, every dollar, 
and everything has to be right every day for it to be a good 
business model.
    You could go to a FinTech conference and there would be 
1,000 FinTechs there. How do you vet them? We have 27 
employees. Who is going to vet them? Part of banking regulation 
is you have to have a scoring model for your vendor management 
program. They are now going to be a critical vendor, just like 
your core processor. We are going to stumble. We need some help 
to figure that out, but that is the future. We need to embrace 
that.
    Mr. Foster. Thank you.
    Chairman Meeks. The gentleman's time has expired.
    I now recognize the gentleman from Colorado, Mr. Tipton, 
for 5 minutes.
    Mr. Tipton. Thank you, Mr. Chairman. I appreciate you 
holding this hearing. And I appreciate all of you taking the 
time to be here today.
    It is an interesting title of this on MDIs. I find it 
interesting the commonality between the MDIs, and my district 
in Colorado has 29 counties, small, rural areas that qualify 
certainly for low- to moderate-income, more on the low-income 
strata as well. As I have had the opportunity to be able to go 
through, we do have a CDFI that is active, First Southwest 
Bank, that is in our district to be able to make some loans, 
but those small community banks are echoing the very same 
concerns that you are putting out here today in terms of 
regulatory compliance and costs.
    And I think we probably have--I do want to certainly 
associate my thoughts with the ranking member's comments in 
regards to CECL as one more additional cost, potentially, that 
is going to impact the ability to make loans. But can we just 
go down the line, do compliance costs impact your ability to 
have profitability and to be able to make loans? Mr. Kelly?
    Mr. Kelly. Yes, it does.
    Mr. Tipton. Ms. Sung?
    Ms. Sung. Yes, it absolutely does.
    Mr. Tipton. Ms. Falero?
    Ms. Falero. Absolutely, it does.
    Mr. Tipton. Mr. Bowman?
    Mr. Bowman. Yes, absolutely.
    Mr. Tipton. Mr. Betru?
    Mr. Betru. Not as a bank, but as a nonprofit, yes.
    Mr. Tipton. It does. Great.
    In listening to Mr. Kelly during his opening comments, he 
said that leadership matters, but policy matters more. And that 
is the role, I think, that Congress needs to actually be active 
in. We have had Chair Yellen before the Full Committee, and we 
have had Chair Powell before the Full Committee. I have a piece 
of legislation called the TAILOR Act, to be able to sculpt 
regulations to be able to meet the size and the risk portfolio 
of the institutions, rather than having one-size-fits-all.
    I think many of us recall some of the comments after the 
passage of the Dodd-Frank Act, the bigger banks, one CEO had 
noted, it becomes a moat around those big banks, making it 
harder for the smaller banks to be able to compete simply 
because you can't keep up with the regulatory costs that are 
coming through.
    As we visited with Chair Yellen, and as we visited as well 
with Chair Powell, the regulations aren't necessarily supposed 
to apply to the smaller institutions, but something called best 
practices comes in when the examiners come in the door. And so, 
those costs do continue to multiply and inhibit that ability to 
be able to grow our communities.
    I had a very similar circumstance to Mr. Loudermilk when I 
started my business. I filled out a form to the Secretary of 
State sales tax license, got a character loan for $10,000, and 
I was in business. What bank can really do that today?
    You can. You are one of the few who might be able to make 
some of those character-type loans. But knowing the clientele 
that you work with, knowing your community is something that 
ought to be respected by the financial policy that is coming 
out of Washington, D.C., because it does have a real impact.
    And we are looking at some of the MDIs. Have you seen 
mergers between MDIs that have taken place? Ms. Sung, you are 
nodding your head. Is some of this a practice really of 
regulatory cost, meaning that you have to have the economy of 
scale to be able to just simply survive?
    Ms. Sung. Yes, it has absolutely had to do that. I have 
seen two Asian-American banks in my community in the past 24 or 
12 months have merged because of that issue. AML/BSA compliance 
regulation is actually one of the highest regulatory costs. I 
would say one-half of my compliance resources are used to that 
particular regulation, and one-third of my board meetings are 
actually spent reviewing AML/BSA reports by my AML/BSA officer. 
So, that is an enormous outweighted focus on one regulation.
    Mr. Tipton. Thank you for that.
    We had a study that was put on by the Council of State Bank 
Supervisors, and they found that regulatory costs for State-
chartered community banks was 4.2 percent just in 2018. And as 
I have talked to my community banks throughout my district, we 
don't have a lot of the big banks that are actually there, but 
those regulatory costs and how that is impacting their profits, 
which ultimately impacts their ability to be able to pay the 
people who work there more and to be able to make those loans, 
has become an inhibiting factor for being able to help 
underserved and rural areas to be able to grow and to be able 
to provide jobs.
    I appreciate, Mr. Chairman, you holding this hearing, and I 
invite the witnesses to take a look at this TAILOR Act. I think 
it is something that might benefit you as well.
    Thank you. And I yield back, Mr. Chairman.
    Chairman Meeks. The gentleman's time has expired.
    I now recognize the gentlewoman from New York, Ms. Ocasio-
Cortez, for 5 minutes.
    Ms. Ocasio-Cortez. Thank you, Mr. Chairman. And I would 
like to thank all of our witnesses here for being here today.
    I think, particularly when we are talking about issues like 
the wealth gap, it is important that we operate and have these 
discussions with the context of history. And in the United 
States, we have a long and ugly history of discrimination and 
economic discrimination. And that history of discrimination and 
plunder has kept communities of color impoverished, and it is 
as apparent today as it was in 1865, when Lincoln signed the 
Freedman's Savings and Trust Act. And it dates back to 
communities like in New York City, when one of New York City's 
first free Black communities was demolished to build Central 
Park.
    I think it is important that we, again, recognize that 
context in history today and see where that inertia of 
injustice and identify where those areas may be in our present 
financial systems, whether it is for Native communities, Black 
communities, Latino immigrant communities, et cetera.
    Minority depository institutions lend to minorities at a 
dramatically higher rates, is that correct, Mr. Kelly?
    Mr. Kelly. Representative, I am not sure of that answer.
    Ms. Ocasio-Cortez. Is there someone on the panel who does 
know the answer to that question?
    Mr. Betru. In terms of the portion of their total lending 
and total assets, disproportionately, they focus on minorities 
more than others.
    Ms. Ocasio-Cortez. Okay. Thank you, Mr. Betru. Is it also 
true that despite strong financial performance, minority 
depository institutions continue to struggle to raise capital?
    Mr. Betru. Yes.
    Ms. Ocasio-Cortez. Why is that?
    Mr. Betru. There is a misconception, I would say, in terms 
of their efficiency. Essentially, there is a perception by MDIs 
by virtue of the fact that they predominantly live within 
minority neighborhoods, that they are in and of themselves 
inefficient and essentially less likely to be a good investment 
source for an investor. And that is actually something that we 
at the Milken Institute wanted to challenge. So, we decided to 
do an analysis of the return on assets in small business 
lending efficiencies of MDIs. We collated everything from 2002 
to 2019, and did a data and envelope analysis, and actually 
found that that is actually not true.
    On a size-weighted basis, the efficiencies of MDIs versus 
non-MDIs was not different between those two cohorts. We are 
actually hoping to have this study published in the next week 
or two, but it gets at this point: The perception of 
inefficiency belays the reality of what these institutions are 
doing.
    Ms. Ocasio-Cortez. To clarify, minority depository 
institutions, by the books, are strong and exhibit strong 
financial performance, but they struggle to raise capital 
because of the perception that minority depository institutions 
are somehow a bad bet?
    Mr. Betru. The perception blocks the ability of investors 
to support them and help them to scale. It is the scale the 
fact that, A, their inability to attract the right type of 
scale to defer the cost of compliance, the scale that actually 
drives the real drive towards efficiency, but it is a 
triumvirate of scale, perception, and a number of other 
compliance-related issues that all conflate the problem that 
you are talking about.
    Ms. Ocasio-Cortez. Thank you very much for that insight.
    Ms. Falero, I wanted to thank you for your testimony today. 
As I am sure you are aware, during economic downturns, 
communities of color are almost always hit the hardest. We need 
look no further than the last financial crisis to see that.
    As a lender to Puerto Rico, I am interested in hearing how 
your organization approaches lending during economic downturns 
and some of the challenges that you face?
    Ms. Falero. Thank you, Congresswoman Ocasio-Cortez, for 
that question. We are very proud to serve the community of 
Puerto Rico. We had a branch there for 25 years, so we are very 
familiar with the needs and wants of that community. And during 
the hurricanes, we worked with our members, and helped them as 
much as we could. We deferred their loan payments. We waived 
all their fees, late fees, ATM fees in the islands, anything 
that we could do to assist them.
    We have a strong auto lending program right now in Puerto 
Rico. The unfortunate part of it is that, since we are a credit 
union, we are very limited in our field of membership, so we 
are only able to serve three cities--Carolina, San Juan, and 
Trujillo Alto--because of the field of membership expansion 
rules that we have.
    Ms. Ocasio-Cortez. Thank you very much.
    Chairman Meeks. The gentlelady's time is expired.
    I now recognize the gentleman from Kentucky, Mr. Barr, for 
5 minutes.
    Mr. Barr. Thanks, Mr. Chairman. I appreciate the hearing, 
and I appreciate the testimony from the witnesses.
    I have a question about mortgage lending for all of you 
all, and we will start with Mr. Kelly and work down the panel, 
if you don't mind. At the conclusion of the promulgation of the 
Qualified Mortgage rule, did you observe a decline in the 
availability of mortgage credit, particularly as you reflect 
upon the fact that your institution serves low- and moderate-
income borrowers?
    Mr. Kelly. Congressman, I am not sure I understood the 
first part of your question.
    Mr. Barr. Did you observe, in serving your customers after 
the Qualified Mortgage rule went into effect, that that 
materially reduced access to mortgage credit for your 
customers?
    Mr. Kelly. Congressman, here is how I would answer that. We 
have seen it become more challenging for us, for a number of 
reasons, to compete in the marketplace, some FinTech-related, 
as one of the witnesses had mentioned here, but also, it is a 
combination of many things.
    And I will give you one example. On CRA, we have seen 
larger banks be able to give rebates to customers for CRA 
credit, and these are much larger banks. We have to compete 
with that, and we can't compete with that.
    The point I am trying to make is that for small 
institutions like ours, it is very difficult to play in the 
mortgage space with the compliance you have to support the 
scale that you have.
    Mr. Barr. I guess what I am getting at--
    Mr. Kelly. Like HMDA, the following of the HMDA rules and 
all of those is a burden for us. And so, for players who are in 
the 100 to 200 over the 2-year period, that becomes very 
challenging to spread that compliance cost based on the spread 
of where we can actually compete and place those mortgages in 
the market. That doesn't include the ones we keep on the books 
in terms of our portfolio--
    Mr. Barr. I guess what I am getting at is, did the 
inflexible, rigid 43 percent debt-to-income rule limit your 
ability to originate mortgages for your customers?
    Mr. Kelly. The answer to that is a simple yes.
    Mr. Barr. Yes.
    Ms. Sung?
    Ms. Sung. When the Dodd-Frank rule came out on the 
Qualified Mortgage, we saw a tremendous drop in lending. It 
took me a year to review the rule and to understand the small 
creditor exception, which was very important for us to be able 
to continue to lend and to lend on our portfolio. I had to go 
to my regulator, despite the fact this was legislatively 
approved, to get them to approve. I had to literally write a 
research and White Paper for them, for them to accept and allow 
me to do this.
    To this day, they are continuing to monitor my lending in 
the small creditor exception space continuously. They are 
worried about concentration risks. I tell them that my mission 
is to serve my community, and my community cannot fall in the 
cookie-cutter profile that other bigger banks are, I must go to 
that. However, they are concerned about concentration risk.
    Mr. Barr. And, Ms. Falero, did your members see a drop in 
access to mortgage credit after the Qualified Mortgage rule 
went into effect?
    Ms. Falero. Unfortunately, we are not able to offer first 
mortgages right now because of the cost involved and our size 
credit union and all the regulations involved.
    Mr. Barr. So you just got out of the business altogether?
    Ms. Falero. We did.
    Mr. Barr. So, QM to you is quitting mortgages?
    Ms. Falero. Yes.
    Mr. Barr. Mr. Bowman?
    Mr. Bowman. We did see a decline in lending. We are 
fortunate, however, because we have a niche product. We serve a 
Native American customer base. There is a product called the 
HUD Section 184 loan, and one of the eligibility requirements 
is you have to be an enrolled member of a federally recognized 
Tribe. Our business continued when QMI came in. What suffered 
were the applicants who didn't qualify, who were non-Native 
American and couldn't qualify for the specialty.
    Mr. Barr. Mr. Betru, I am going to come back to you. But 
just for the other witnesses, I am sorry that the CFPB's rule 
negatively impacted your customers. What we were able to do in 
a bipartisan basis in the last Congress was, through a 
portfolio lending provision for institutions below $10 billion 
in consolidated assets, is provide that portfolio lending 
relief, and our hope is and our intent was to provide your 
institutions and, more importantly, your customers, that 
flexibility to access mortgage credit where you can retain that 
risk and hold those credits on your books.
    And that is what we were trying to remedy there. Last 
question to Mr. Betru, Mr. Betru, the valid-when-made doctrine, 
if we were to restore valid when made and overturn Madden, 
would that help invite FinTech assistance for minority-owned 
institutions?
    Mr. Betru. I believe on valid-when-made component, and I 
think both sides of the argument have a valid point. On one 
end, you have proponents that are making the right case that 
when a loan is made from a borrower and a provider, that 
financial services having that clarity throughout the life of 
that loan makes absolute sense. I think the fact that we have 
differences with regards to what is affordable across multiple 
States, in some places like in Utah where there are no usury 
laws, is putting a little bit of consternation for various 
lenders. That being said, from a FinTech's perspective, they 
are operating throughout multiple different jurisdictions.
    I think the biggest point that we have to figure out is, 
the banks that are sitting here are dealing with a different 
regulatory regime than the nonbanks, and bringing parity to 
that absolutely makes sense. In the absence of that parity, I 
think the situation we are dealing with is, we have FinTechs 
that are able to provide a type of financing that a lot of 
these banks are not.
    Chairman Meeks. The gentleman's time is expired.
    I now recognize the gentleman from Florida, Mr. Lawson, for 
5 minutes.
    Mr. Lawson. Thank you, Mr. Chairman, and witnesses, welcome 
to the committee.
    Mr. Kelly, could you tell me how many African-American 
banks are still in existence? Do you have that number?
    Mr. Kelly. There is a round number that I would say is 
roughly around 21, 22, is the number in the country out of 
roughly 5,500-plus banks.
    Mr. Lawson. Okay. The other question would be--and I might 
know some of the answers, but I would like to hear some of the 
answers from you, if you are aware. What led to the major 
decline? It wasn't a financial crisis; it probably started 
before then. But what led to the major decline of African-
American banks?
    Mr. Kelly. I would say it is a host of things. I think it 
was Representative Loudermilk who mentioned that it is death by 
a thousand cuts, and that has been prevalent in the industry. 
The challenges that you heard him describe in Georgia, I think 
Georgia lost more banks than any other State in the country. 
These are not MDIs, but I think it is somewhat prevalent.
    The other aspect of it that I would say to you, 
Congressman, is the propensity of where African-American banks 
were built. You heard Congressman Scott mention there hasn't 
been one chartered in 20-plus years. Our banks were centered in 
the heart of what used to be the middle-class African-American 
community where the doctors, and the lawyers, et cetera, lived. 
Some of that was because of redlining issues that the 
Congresswoman made reference to, but the reality is, through 
kind of some of the changes in our economy where you saw people 
move away from the city and to the suburbs, our institutions 
weren't capable of being able to deliver beyond the brick and 
mortar and the circumferences that they were built in. And so 
you saw kind of a decline of business activity around some of 
these institutions that have been somewhat challenging for 
them.
    Mr. Lawson. Mr. Betru, would you like to comment on that?
    Mr. Betru. Sure. In answering your question, I think it is 
important to take the Congresswoman's comment earlier about 
making a historical context point. I think when we look at the 
middle of this previous century dealing with redlining, it 
wasn't, at least on paper, an overtly racist issue. It was 
utilizing the construct of these markets are too risky to 
engage in.
    Now, if we are talking about the failure of MDIs in 
quotations, and I don't believe the failure is an accurate 
description, it is a mixture of everything that happened post-
2008, in terms of the individuals being targeted by certain 
unscrupulous mortgage lenders, their wealth being destroyed. 
Eventually, those institutions that served them felt the brunt 
of the 2008 crisis. And post, what do we do, we started 
introducing a number of regulatory standards that were unfairly 
at parity between an institution that is sub-$1 billion in 
assets with all the other banks.
    In essence, are we looking at introducing, it is too risky 
for these banks to operate in these areas in a similar way that 
is unfair? The MDIs are $250 billion in assets, the entire 150 
of them, $250 billion. That is like 1 percent of the total 
assets of the all 5,500 institutions, yet we are subjecting 
them to the exact same level of regulatory scrutiny as we have 
other banks north of $200 billion in assets. If we want them to 
actually deploy capital to the exact communities that need it, 
then we have to rightsize the rules which govern them.
    Mr. Lawson. That is amazing.
    And the last question is, if I have enough time, it seems 
like the credit unions that are associated with a university 
seem to have a much higher opportunity to survive during the 
financial crisis and so forth. Is it because they have built-in 
depositories that are used from the universities, especially 
with minority universities? Is that one of the reasons why you 
can still find credit unions associated with the universities 
and in many of the cities where there are minority 
institutions?
    Mr. Bowman, you seemed like you wanted to say something?
    Mr. Bowman. I work in the banking industry, and I think I 
would defer to Ms. Falero. She runs a credit union.
    Ms. Falero. Congressman, yes, I work at a credit union, and 
I believe the reason why credit unions are a little bit more 
able to survive is the way we do our loans. We are very 
conservative, highly regulated, and our mission in life is to 
deal with the underserved. That is what we do.
    Mr. Lawson. Okay. I yield back, Mr. Chairman.
    Chairman Meeks. Thank you.
    I am now going to yield a minute and a half to the ranking 
member for a closing statement.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    I thank each one of you for being here today. You have done 
a great job of stating your case and informing us. It has been 
very informative for me to be able to ascertain some of the 
things that I think are important.
    I think from the standpoint that small banks and credit 
unions provide many resources to the communities that you 
serve, you have the same problems that every small community 
bank, every small credit union in the country has from the 
standpoint of compliance, because it is just through the roof. 
It is driving consolidation, it is driving them out of 
business, and we need to find ways to minimize that, if not get 
rid of it altogether.
    Obviously, my focus has been on CECL today because I think 
it is a huge problem for, I think, our economy and especially 
for small banks and credit unions in particular from the 
standpoint of having to reserve more money for that, and there 
is only one place to go get that and that is when you make that 
loan. And that is going to raise the cost. It is going to keep 
people from having access to credit.
    I think one of the things we talked about, I think Ms. Sung 
talked about, was concentration of credit or concentration of 
risk. If you are doing a good job of representing your 
community, you are going to be invested in your community. You 
know what you are going to do? You are going to have a lot of 
risk in your community, because that is where your risk is. 
That is what you want to do, you want to improve your 
community.
    As a small institution, yes, you have your investments in 
the community and that is where your risk is, but if you do a 
good job of--and this is where the analysis of the regulator 
needs to be. And as a former regulator, I can tell you some of 
them do a good job and some of them don't. You wind up with 
some folks who don't want to do their job, and they are lazy, 
but they need to go in there and depend on you to give them a 
review of the economic activity in your area and how you can 
help interact with that and build a better community.
    Each of you, I can see, have your community at heart. I 
thank you for that.
    And with that, I will yield back.
    Chairman Meeks. Thank you.
    First, let me ask unanimous consent to enter statements 
into the record submitted by the Credit Union National 
Association, the Creative Investment Research, and the 
inclusive and its network of CDFI credit unions.
    Also, without objection, I ask for unanimous consent to 
submit an article published on the OCC website entitled, 
``Citibank: Partnering With Community Banks to Expand Financial 
Access,'' which speaks out about Citi's program which provides 
over 440,000 customers of 25 participating community banks, 
minority deposit institutions, and Federal credit unions with 
surcharge-free access at 2,300 Citibank branch ATMs.
    Without objection, it is so ordered.
    And I now recognize myself for a minute and a half for a 
closing statement.
    As we conclude this hearing, I first wish to thank the 
witnesses for your testimony and for choosing to tackle some of 
the most difficult challenges in banking, namely, ensuring 
access to financial services for marginalized, underbanked, and 
discriminated communities. We sometimes portray banking and 
bankers as a monolith, but it is a complex and diverse industry 
that is reflective of the diversity of America, but it is also 
reflective of the problems in America.
    We cannot allow minority banks to disappear. And we must 
work in earnest to tackle the challenges of banking 
discrimination in lending and foster genuine diversity in the 
banking sector. We must do that, because that is the way we 
close the wealth gap. If we look at what took place prior to 
2008, we were closing the wealth gap, but after 2008 and the 
crisis, when individuals in minority communities were most 
directly affected, that wealth gap just blew open, and we are 
not lending in the way or having access to capital in the way 
that we should in our MDIs.
    So, I have taken note. I have been listening very carefully 
to the feedback on my bill, and I will work to make appropriate 
changes ahead of its introduction.
    I must close with thanking, again, Chairwoman Waters, for 
putting issues of diversity and inclusion at the heart of our 
committee's work, as well as to congratulate my colleague, Mrs. 
Beatty, for her able leadership on the Diversity & Inclusion 
Subcommittee.
    But I also want to thank my colleagues from across the 
aisle, Mr. McHenry and Mrs. Wagner, and, of course, the ranking 
member of this subcommittee, Mr. Luetkemeyer, for engaging with 
us constructively on issues of diversity and, in particular, on 
today's hearing on minority banks and tackling issues faced by 
underbanked communities. These issues cut across parties and 
districts, and I believe that our work here matters to the 
vulnerable communities we all represent in Congress.
    Again, I thank the witnesses for their testimony today.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
